 ~SUWIC£S.




(.J
",.:1
                                         DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                                            OFFICE OF AUDIT SERVICES
                                                           233 NORTH MICHIGAN AVENUE
                                                             CHICAGO, ILLINOIS 60601
                                                                                                                              REGION
                                                                                                                              OFFICE OF
                                                                                                                                        V
                                                                                                                         INSPECTOR GENERAL

                                                                  October 22, 2008


         Report Number: A-05-08-00045

         Ms. Janet Olszewski
         Director
         Michigan Department of Community Health
         Capital View Building
         201 Townsend Street
         Lansing, Michigan 48913

         Dear Ms. Olszewski:


         Enclosed is the U.S. Department of                 Health and Human Services (HHS), Office of                 Inspector
         General (OIG), final report entitled "Review of                              Medicaid Inpatient Hospital Transfer Payments
         in Michigan for October 1,2003, Through September 30,2006." We wil forward a copy of
                                                                                                                                 this
         report to the HHS action offcial noted on the following page for review and any action deemed
         necessary.

        The HHS action official wil make final determination as to actions taken on all matters reported.
        We request that you respond to this official within 30 days from the date of this letter. Your
        response should present any comments or additional information that you believe may have a
        bearing on the final determination.

        Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
        Public Law 104-231, OIG reports generally are made available to the public to the extent the
        information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
        wil be posted on the Internet at http://oig.hhs.gov.

        If you have any questions or comments about this report, please do not hesitate to call me, or
        contact Jaime Saucedo, Audit Manager, at (312) 353-8693 or through e-mail at
        Jaime.Saucedo(foig.hhs.gov. Please refer to report number A-05-08-00045 in all
        correspondence.

                                                                          Sincerely,


                                                                        J.4¿     Gfc. f2
                                                                        I' ((arc Gus son
                                                                          Regional nspector General
                                                                           for Audit Services


        Enclosure
Page 2 - Ms. Janet Olszewski


cc:
Mr. Paul Reinhart
Senior Deputy Director
Michigan Department of Community Health
Medical Services Administration
Capital Commons Center
400 South Pine
Lansing, Michigan 48933

Ms. Pam Myers
Manager
Michigan Department of Community Health
Office of Audit
Capital Commons Center
400 South Pine
Lansing, Michigan 48933

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reily
Consortium Administrator
Consortium for Financial Management and Fee for Service Operations
Centers for Medicare and Medicaid Services
601 East 1 ih Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL.




     REVIEW OF MEDICAID
INPATIENT HOSPITAL TRANSFER
  PAYMENTS IN MICHIGAN FOR
  OCTOBER 1, 2003, THROUGH
     SEPTEMBER 30, 2006




              ~ SERVICEs

                           Daniel R. Levinson


       (/JI
        "'1- ~
        .r+
          .flll?d30
                            Inspector General

                              October 2008
                             A -05-08-00045
                                                .1
                             Office of Inspector General
                                                     http:// oig.hhs.gov




The mission of        the Offce ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity ofthe Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and effciency throughout HHS.

Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
effciency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations

The Offce of Investigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

 Office of Counsel to the Inspector General

 The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
 rendering advice and opinions on HHS programs and operations and providing all legal support
 for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
 abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
 monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
 corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
 guidance, publishes fraud alerts, and provides other guidance to the health care industry
 concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

The Department of Community Health (State agency) is responsible for inpatient hospital
Medicaid reimbursement in Michigan. Attachment 4.19-A of the CMS-approved State plan
requires, with some exceptions, the State agency to use the Diagnosis Related Groups (DRG)
payment methodology to reimburse hospitals for inpatient hospital services. A DRG payment is
designed to cover an average hospital’s operating costs necessary to treat a patient to the point
that a discharge is medically appropriate.

As part of the State agency’s Medicaid DRG system, special payment policies apply to claims
involving the transfer of a beneficiary from one hospital to another on the same day. Pursuant to
the State agency’s Medicaid Provider Manual, section 2.8.F, the transferring hospital is paid a
prorated DRG payment for each day of the beneficiary’s stay, not to exceed the full DRG
payment.

OBJECTIVE

Our objective was to determine whether the State agency properly paid inpatient hospital claims
and claimed Federal reimbursement for beneficiaries transferring from one hospital to another on
the same day in accordance with the CMS-approved State plan.

SUMMARY OF FINDINGS

The State agency did not properly pay inpatient hospital claims and claim Federal reimbursement
for beneficiaries transferring from one hospital to another on the same day in accordance with
the CMS-approved State plan. Specifically, the State agency made overpayments totaling
$215,137 ($121,209 Federal share) to 28 hospitals for 36 of 57 inpatient hospital claims
reviewed. The overpayments were made because hospitals incorrectly coded the claims as
discharges and claimed the full DRG payment instead of the transfer, prorated DRG payment.
Additionally, the State agency’s payment system edits relating to transfers between hospitals on
the same day were not functioning properly. The remaining 21 claims were properly paid in
accordance with the CMS-approved State plan.




                                                i
RECOMMENDATIONS

We recommend that the State agency:

   •	 refund to the Federal government $121,209 for the overpayments made to the 28 

      hospitals, 


   •	 use the results of this audit in its provider education activities related to proper coding of
      claims for beneficiaries transferring from one hospital to another, and

   •	 ensure the system edits designed to detect and monitor inpatient hospital claims for
      beneficiaries transferred between hospitals on the same day are working as intended.

AUDITEE COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations. The State agency’s comments are included in their entirety as the Appendix.




                                                 ii
                                                 TABLE OF CONTENTS 


                                                                                                                                     Page


INTRODUCTION ...................................................................................................................... 1 


          BACKGROUND.............................................................................................................. 1 

              Medicaid Program ................................................................................................ 1 

              Diagnosis Related Group Payment Methodology ................................................ 1 

              Michigan Payments for Inpatient Hospital Transfers........................................... 1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................... 2 

               Objective .............................................................................................................. 2 

               Scope .................................................................................................................... 2 

               Methodology ........................................................................................................ 2 


FINDINGS AND RECOMMENDATIONS ............................................................................. 4 


OVERPAYMENTS MADE TO HOSPITALS ........................................................................ 4 

        State Plan and Provider Manual ........................................................................... 4 

        Claims Not Coded Correctly ................................................................................ 4 

        State Agency System Edits................................................................................... 5 


          RECOMMENDATIONS ................................................................................................. 5 


          STATE AGENCY COMMENTS .................................................................................... 5 


APPENDIX

         STATE AGENCY COMMENTS




                                                                   iii
                                              INTRODUCTION 


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. The Department of Community Health (State
agency) administers the Medicaid program in Michigan.

Diagnosis Related Group Payment Methodology

Attachment 4.19-A of the CMS-approved State plan requires, with some exceptions, the State
agency to use the Diagnosis Related Groups (DRG) payment methodology similar to the
Medicare program1 to reimburse hospitals for inpatient hospital services. A DRG payment is
designed to cover an average hospital’s operating costs necessary to treat a patient to the point
that a discharge is medically appropriate. According to the State agency’s Medicaid Provider
Manual (the Manual), section 2.1, the Medicaid DRG reimbursement system uses the same
Grouper2 logic as the Medicare Program to assign DRGs to claims.

The State agency developed its own reimbursement methodology based on its historically paid
claims and does not use the same version of the Grouper program as Medicare. According to
section 2.5 of the Manual, the reimbursement methodology includes statewide relative weights
that are calculated using inpatient claims information for admissions in the Michigan Medicaid
and Children’s Special Care Services programs. The information is derived from four
consecutive state fiscal years and hospital-specific cost report data from three consecutive cost
report years.

Michigan Payments for Inpatient Hospital Transfers

Section 2.8.F of the Manual states that for beneficiary transfers, the transferring hospital is paid a
DRG daily rate for each day of the beneficiary’s stay, not to exceed the full DRG payment. The


1Section  1886(d) of the Act, enacted as part of the Social Security Amendments of 1983 (Public Law 98-21),
established the Medicare prospective payment system (PPS) for inpatient hospital services. The DRG payment
methodology limits PPS payments for patient transfers to other PPS hospitals to per diem payments. Under Federal
regulations at 42 CFR § 412.4(f), the per diem rate is determined by dividing the appropriate prospective payment
rate by the average length of stay for the specific DRG.

2
 The Grouper is a software program that classifies each case into a DRG based on the beneficiary’s diagnosis,
procedure codes and demographic information (e.g., sex, age, and discharge status.)



                                                         1

DRG daily rate is calculated by multiplying the DRG price by the relative weight and then
dividing by the average length of stay for the DRG. The full payment to the transferring hospital
is the DRG daily rate multiplied by the length of stay, plus any outlier payments, if applicable,
and must not exceed the full DRG rate.

To ensure appropriate reimbursement for beneficiaries transferred to another hospital on the
same day, the transferring hospital must indicate that a transfer occurred by placing code “02”
(discharged/transferred to another short-term hospital for inpatient care) in the patient status box
on the claim form. Hospital inpatient stays subject to DRG reimbursement are usually paid less
than the full DRG amount when the patient is transferred to another inpatient hospital.
Therefore, a transfer between hospitals improperly coded as a discharge normally results in an
overpayment since both hospitals receive full DRG payments.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency properly paid inpatient hospital claims
and claimed Federal reimbursement for beneficiaries transferring from one hospital to another on
the same day in accordance with the CMS-approved State plan.

Scope

Of the 57 claims that were identified as potential inpatient hospital transfers paid by the State
agency for October 1, 2003, through September 30, 2006, we reviewed 32 claims from 23
hospitals while the State agency reviewed the remaining 25 claims from 20 hospitals.3 We
limited our review of internal controls to obtaining an understanding of the State agency’s
policies and procedures for reimbursing hospitals for beneficiaries transferred from one hospital
to another on the same day.

We conducted fieldwork from January through March 2008 by contacting the State agency,
located in Lansing, Michigan, and the 23 hospitals that received Medicaid reimbursement for
claims reviewed.

Methodology

To accomplish our objective, we:

       •	 reviewed applicable Federal regulations, the CMS-approved State plan, and the Manual;

       •	 held discussions with State agency officials regarding system processing edits for claims
          for beneficiaries transferring from one hospital to another on the same day;

3
    The 57 claims were made by 39 hospitals. The State agency and our review of claims overlapped at 4 hospitals.




                                                           2
    •	 used the CMS Medicaid Statistical Information System4 to identify 7,044 instances of
       patients discharged from one hospital and admitted to another hospital on the same
       calendar day and determined that:

             o	 4,642 claims were properly coded as transfers and appropriately paid the prorated
                DRG payment rate;

             o	 1,408 claims were appropriately paid the full DRG payment in accordance with
                the CMS-approved State plan;

             o	 923 claims were deemed low risk due to their low-dollar amount;

             o	 71 claims at 43 hospitals were potential transfers that may have been improperly
                coded as discharges resulting in overpayments to transferring hospitals;

    •	 worked with the State agency and determined that for the 71 claims:

             o	 10 claims had previously been audited by the State agency’s program
                investigation section;5

             o	 4 claims were correctly coded based on the referral code; and

             o	 the 57 remaining claims were potential inpatient hospital transfers and
                overpayments that required a review of the medical records;

    •	 reviewed discharge summaries6 contained in hospitals’ medical records for 32 of the 57
       claims, while the State agency reviewed documentation for the remaining 25 claims7 to
       determine whether a beneficiary was discharged or transferred from one hospital to
       another;

    •	 quantified the number of claims incorrectly coded for beneficiaries that were transferred
       from one hospital to another and the total overpayments made to the hospitals; and


4
 The Medicaid Statistical Information System contains Medicaid eligibility and payment information that the States
provide to CMS on a quarterly basis.

5
 For hospitals audited by the State’s program investigation section, an error rate was determined and extrapolated
over the hospitals’ claims for the period and the State agency recovered funds from the hospital. Therefore, we did
not review these hospitals’ claims.

6
 Patient discharge summaries describe the patient’s illness, treatment received, and a plan of care, including
discharge or transfer information.

7
 The State agency determined that 23 of the 25 claims were inappropriate and included overpayments. We included
the State agency results in our audit finding.



                                                          3

   •   validated our findings with the hospitals and the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not properly pay inpatient hospital claims and claim Federal reimbursement
for beneficiaries transferring from one hospital to another on the same day in accordance with
the CMS-approved State plan. Specifically, the State agency made overpayments totaling
$215,137 ($121,209 Federal share) to 28 hospitals for 36 of 57 inpatient hospital claims
reviewed. The overpayments were made because hospitals incorrectly coded the claims as
discharges and claimed the full DRG payment instead of the transfer, prorated DRG payment.
Additionally, the State agency’s payment system edits relating to transfers between hospitals on
the same day were not functioning properly. The remaining 21 claims were properly paid in
accordance with the CMS-approved State plan.

OVERPAYMENTS MADE TO HOSPITALS

The State agency made overpayments, totaling $215,137 ($121,209 Federal share), to 28
hospitals for 36 claims.

State Plan and Provider Manual

Attachment 4.19-A of the CMS-approved State plan requires, with certain exceptions, that the
State agency reimburse all hospitals participating in the Medicaid program for inpatient services
based on DRGs.

As part of the State agency’s Medicaid DRG system, special payment policies apply to claims
involving the transfer of a beneficiary from one hospital to another. Pursuant to the Manual,
section 2.8.F, the transferring hospital is paid a prorated DRG payment for each day of the
beneficiary’s stay, not to exceed the full DRG payment.

To ensure appropriate reimbursement for beneficiaries transferred from one hospital to another,
the transferring hospital must indicate that a transfer has occurred by placing code 02
(discharged/transferred to another short-term hospital for inpatient care) in the patient status box
on the claim form.

Claims Not Coded Correctly

The overpayments were made because hospitals did not use the correct code in the patient status
box on the claim form. Specifically, the 28 hospitals improperly coded the patient status on the


                                                 4

claims with a code of “01” signifying that the beneficiaries were “discharged to home or self-
care, routine discharge” and claimed the full DRG amount. However, medical records indicated
that the hospitals should have coded the patient status with a code of “02” signifying that the
beneficiaries were “transferred to another short-term hospital for inpatient care” and claimed the
appropriate DRG daily rate.

State Agency System Edits

In addition to the incorrectly coded claims, the State agency’s payment system edits relating to
transfers between hospitals on the same day were not functioning properly during our audit
period. Specifically, the edit was not functioning when a patient was admitted and transferred on
the same calendar day.

RECOMMENDATIONS

We recommend that the State agency:

   •	 recover the $215,137 ($121,209 Federal share) in overpayments made to the 28 hospitals,

   •	 use the results of this audit in its provider education activities related to proper coding of
      claims for beneficiaries transferring from one hospital to another, and

   •	 ensure the system edits designed to detect and monitor inpatient hospital claims for
      beneficiaries transferred between hospitals on the same day are working as intended.

AUDITEE COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations. The State agency’s comments are included in their entirety as the Appendix.




                                                 5

APPENDIX 

APPENDIX
 Page 1 of 2 

APPENDIX
 Page 2 of 2 

